Audit Report 97-11
AUTOMATED INFORMATION SYSTEMS IN THE
UNITED STATES MARSHALS SERVICE
Audit Report 97-11, (9/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
AUTOMATED INFORMATION SYSTEMS IN THE USMS
Planning and Implementation
Implementation of MARSHALS
Implementation of WIN and PTS
Integration of WIN with PTS
Life Cycle Costs
AIS Support
Help Desk Administration
Systems Administrators
Senior Systems Administrators
Training
AIS Training
Computer Security Training
Management's Perspective and Actions on AIS Management
Conclusion
Recommendations and Status of Corrective Actions
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX I - SCOPE AND METHODOLOGY
APPENDIX II - USMS AUTOMATED SYSTEMS
APPENDIX III - PRIOR REPORTS
APPENDIX IV - USMS AIS USERS SURVEY RESULTS
EXECUTIVE SUMMARY
The United States Marshals Service (USMS) enforces federal laws and provides support to
the federal justice system in executing arrest warrants, maintaining custody of prisoners,
providing court security, protecting witnesses, and managing seized assets. Information
systems are used to collect, process, store, and transmit information critical to the
USMS's mission. For FY 1996, the USMS reported expenditures of about $8.9 million for
various information technology initiatives.
Prior reviews of information systems at the USMS have identified problems with
planning, clearly assigning responsibilities, and timely implementing systems. We found
that these and other problems continued to exist. USMS management places emphasis on staff
meeting its law enforcement mission. However, because of this emphasis and the frequent
shifting of priorities among information system initiatives, the management of systems to
support the USMS law enforcement mission has suffered from a lack of full implementation
of some systems, failure to integrate systems using like data, and lack of adequate
support for users in some locations.
The Information Technology Management Reform Act of 1996 required improvements to
management of information systems throughout the government. A Chief Information Officer
(CIO) has been appointed and the headquarters level management of information technology
has been restructured. Senior USMS management must now ensure improvements to information
systems necessary to properly support the mission of the USMS.
INTRODUCTION
Our objective was to evaluate the effectiveness of planning, acquisition,
implementation, and management of Automated Information Systems (AIS) in the USMS. Our
audit scope and methodology are described in Appendix I.
The USMS consists of a headquarters, 94 district offices, and 224 suboffices. At
headquarters, the Information Services Division is responsible for designing,
implementing, and operating information systems. District offices are headed by a United
States Marshal and staffed with Deputy Marshals and administrative personnel. Many
district offices also have suboffices in other cities where federal courts are located.
The staff in district offices and suboffices are the primary users of USMS automated
systems.
Information systems are intended to support the USMS by providing law enforcement and
administrative personnel with timely information on fugitive apprehension cases, prisoners
under USMS control, and witnesses under USMS protection. See Appendix II for a complete
list of USMS information systems.
The USMS information systems have been the subject of several prior reviews and audits.
The prior reports are summarized in Appendix III.
Specific policies and a procedural approach for management of AIS in the Department of
Justice are contained in DOJ Order 2830.1D, Automated Information Systems Policies. In a
1993 Office of the Inspector General (OIG) report regarding Justice Management Division
(JMD) AIS procurement activities, we noted that "the Departmental AIS policies as
currently written are inconsistent with current acquisition management practices and are
no longer effective in guiding Departmental components in managing AIS." In 1995 JMD
circulated for comment a revised DOJ Order on AIS policies. However, as of June 30, 1997,
the order had not been finalized.
On July 17, 1996, the President issued an executive order implementing the Information
Technology Management Reform Act of 1996. The order requires agencies to significantly
improve the management of their information systems, refocus information technology
management to support directly their strategic missions, rethink and restructure the way
they perform their functions before investing in information technology to support that
work, and establish clear accountability for information resources management activities
by creating agency CIOs.
FINDINGS AND RECOMMENDATIONS
AUTOMATED INFORMATION SYSTEMS IN THE USMS
The USMS's planning for AIS generally complied with requirements, but implementation of
important systems was not complete, systems using common data elements were not
integrated, and the support system for users needed improvement. In addition, improvements
were needed in AIS and computer security training.
We focused our audit on three USMS information systems.
·  The Marshals Automated Resources to Support Headquarters and
Local Systems (MARSHALS) is intended to serve as the delivery platform for USMS systems
and software applications.
·  The Prisoner Tracking System (PTS) is based on separate
databases maintained in each district office. PTS tracks federal prisoners under USMS
jurisdiction.
· The Warrant Information Network (WIN) is based on a centralized
database maintained at USMS Headquarters. WIN tracks warrants on federal fugitives.
We focused our work on these systems because, in our judgment and in the judgment of
USMS management, these are the most crucial systems to the accomplishment of the USMS law
enforcement mission. In addition, we surveyed USMS systems users regarding their use of:
Financial Management Information System (FMIS), word processing software, E-mail software,
and the Seized Asset Management System (SAMS), which is being phased out by the USMS.
Planning and Implementation
We reviewed the USMS AIS Strategic Plan 1993 through 1997 and Tactical Plan 1993
through 1995. These plans were developed based on guidance provided by the JMD and were
designed to ensure compliance with federal requirements for AIS.
Generally, the USMS AIS plan complied with Department requirements. However, the USMS
did not implement MARSHALS, WIN, and PTS as originally described in their AIS plan. Also,
the WIN and PTS law enforcement databases were not designed to share common data elements.
Implementation of MARSHALS
MARSHALS provides local area networks in district offices and suboffices which are
connected through a wide area network. MARSHALS was designed to serve as a platform for
providing office automation software such as word processing and E-mail. MARSHALS was also
designed to serve as a gateway for providing USMS employees with access to USMS law
enforcement and administrative automated systems. As of February 1997, MARSHALS was
implemented in 63 district offices, 6 headquarters locations, and 2 additional sites.
MARSHALS has not been implemented in the remaining 31 district offices and their
suboffices1.
In the past there had been uncertainty of authorization and funding of the continued
implementation of MARSHALS. USMS officials told us that in FY 1996 the USMS increased
funding levels for AIS activities, and USMS has committed to the completion of the
MARSHALS networking project for all districts in FY 1997. They also told us that
additional district office installations have been accomplished with existing Information
Services Division staff and a General Services Administration contract for wiring.
The Department gave USMS approval for their request to expend about $13 million for
MARSHALS. However, as of the end of our audit work, the USMS had expended only $7.8
million on MARSHALS.2 USMS officials were unable to
explain the status of the $5.2 million authorized but not expended.
Implementation of WIN and PTS
The USMS originally planned to provide direct access to WIN in all 94 district offices.
However, development of WIN was drastically curbed in FY 1988 when the USMS determined to
integrate WIN with other databases. In January 1997, the CIO told us that the personnel
shortage to support WIN has been remedied; and a new version of WIN is expected to be
implemented, providing WIN capability to the 63 districts, 6 headquarters locations and 2
additional sites with MARSHALS installed in 1997.
The PTS has been installed in all district offices; however, the system is primarily a
district office database which cannot share data with other USMS district offices. The
offices with MARSHALS connection can view or print a limited subset of another district
office's prisoner database but cannot copy and transmit the files. The remaining
non-networked district offices cannot electronically access any other district's PTS
files. Without the ability to electronically share files, all data must be entered
separately by each office. In our judgment, the lack of a coordinated link of PTS data
prevents USMS staff from maximizing the use of electronic data.
Integration of WIN with PTS
We found that WIN and PTS were not integrated. Specifically, related law enforcement
information contained in both systems was not available through a common interface. Users
had to query both systems separately in order to obtain required information on fugitives
and federal prisoners who were the responsibility of the USMS. Additionally, there is
duplication of data entry and data redundancy. The existence of these two separate systems
duplicates resources, such as data entry, computer processing, and hardware and software
support. Although WIN and PTS were developed by the same contractor, no effort was made to
integrate the two systems.
Integration of WIN with other systems has been proposed twice in the past. According to
USMS officials, in 1988 management decided that WIN should be integrated with other
systems to maximize efficiency. In 1990 the USMS proposed integrating WIN and other
databases under an Offender Based Information System (OBIS). JMD reported that a
requirements analysis and systems design for OBIS was completed in FY 1991 at a cost of
$755,530. However, USMS officials told us that OBIS was terminated due to budgetary and
other organizational causes.
The current AIS plan recommended integration of WIN and PTS to reduce the duplication
of data entry and data redundancy as well as to foster data sharing. The project, similar
to OBIS, combines elements from the prisoner tracking, prisoner transportation, and
prisoner location databases.
In our judgment, the USMS needs to complete integration of WIN and PTS to improve the
utility of these two mission critical systems. Additionally, the USMS needs to take steps
that will ensure that future AIS planning and development provides full integration of
electronically stored data.
The Information Services Division staff also told us that they have determined
significant portions of the OBIS initiative to still be valid, and they have decided to
pursue the valid portions under a new project called the Justice Detainee Information
System.
The Information Services Division staff also indicated that they have taken significant
steps toward the consolidation of data elements. Both the WIN and PTS have been
reformulated to a common standardized database. A concerted effort has been made to
upgrade district office file servers to a more modern open-system hardware environment.
The telecommunication network is being modernized to provide faster and more reliable data
transfer. Preliminary trials of the consolidated system, aimed at testing the validity and
integrity of the WIN/PTS conversion to a single database platform, was planned for the
District of Eastern Virginia during the second quarter of FY 1997.
Life Cycle Costs
DOJ Order 2830.1D requires the use of a life cycle management methodology to ensure
systems are planned, developed, and operated in an efficient and effective manner at the
lowest total life cycle cost. A June 1995 report by the JMD Systems Policy Staff noted
that the USMS did not have a method of tracking its obligations by project or by AIS
authority.
In August 1996, the USMS began tracking obligations by AIS project using commercial
database software. However, that database cannot interact with USMS's financial management
system. During our audit, we discussed with JMD staff the USMS's problems in tracking life
cycle costs. The Assistant Director, Financial Management Systems Analysis Group, JMD,
indicated to us that data fields in the Financial Management Information System (a JMD
financial system used by the USMS) could be coded to track transactions by AIS project.
AIS Support
The USMS supports its AIS with a three-tiered system consisting of a
Headquarters-maintained help desk, regionally-assigned senior system administrators, and
district office-assigned system administrators. We found the AIS support system to be
logically structured and capable of delivering appropriate services to users. However,
inefficiencies in the implementation and management of the system required improvements as
detailed below.
Help Desk Administration
The help desk is designed to provide phone-in technical support service similar to
services provided by major hardware and software manufacturers. Help desk staff assist
field users in finding solutions for local problems.
The help desk used a database to store common problems and questions identified through
telephone calls from users. Each telephone call and the related questions and problems
should have been entered into the database, but we found that help desk staff did not
routinely enter the necessary data. Additionally, the help desk did not document the
response to each problem or question and did not document the status of each request for
assistance. As a result, neither we nor the USMS could directly test the timeliness and
accuracy of support provided by the help desk.
We conducted a user survey (see Appendix IV for details on the survey) to ascertain
user satisfaction with the help desk and the quality of service provided.  After our
survey, the Information Services Division staff told us that they have contracted with an
independent firm for help desk services and that there has been a perceived improvement in
response by users in the field. An automatic call distribution system now routes calls to
the most knowledgeable help desk specialist.
Systems Administrators
The systems administrator position was a collateral duty usually assigned to either a
Deputy U.S. Marshal or an administrative officer. Systems administrators manage automated
systems in the district office and train other district office staff. Information Services
Division staff told us that district offices were approved to hire computer specialists.
In our judgment, such specialists will substantially improve the computer expertise in the
districts.
In its November 1995 report on computer security at the USMS, the JMD Computer and
Telecommunications Security Staff stated that the Information Services Division did not
provide field office system administrators with UNIX system (network operating system)
documentation or UNIX training. JMD recommended that "all field site systems
administrators should be provided with UNIX system documentation and sufficient training
in order to effectively manage district systems."
During the course of our audit, the Information Services Division, with the aid of a
contract with a professional computer trainer, developed and began presenting additional
systems administrator training on using UNIX software, customizing PC and network systems,
maintaining hardware, and managing computer security. As of August 27, 1996, 23 system
administrators had completed the new training. The remaining system administrators are
scheduled to complete the training by July 1997. Although we did not test the new
training, we reviewed the training agenda and noted that it appears sufficient to address
the training needs identified by our audit and the JMD review.
Senior Systems Administrators
To provide field staff with access to computer professionals, the USMS developed a
system of regional senior systems administrators. The senior systems administrators were
established by the USMS in October 1993. Each senior systems administrator was located in
a district office and was to travel throughout a specified region providing assistance to
other district offices and suboffices. Senior systems administrators were also to serve as
the systems administrators for their home district offices.
We reviewed the assignment of senior systems administrators and identified five
instances where positions were not assigned in the best interest of AIS users.
· The Central District of California (Los Angeles, California)
Because this office made extensive use of AIS and needed technical support, the U.S.
Marshal requested that a senior systems administrator be assigned to Los Angeles. A
candidate was selected for the position but, to accommodate the personal needs of the
candidate, he was assigned to the District of Arizona. Subsequently, the U.S. Marshal
requested an additional systems administrator position to meet the needs of the office.
· The Southern District of Florida (Miami, Florida)
To accommodate personal needs, the candidate selected as the senior systems
administrator was assigned to the West Palm Beach, Florida suboffice rather than the
district office in Miami. The Supervisory Deputy U.S. Marshal told us that about 80
percent of the senior systems administrator's time was spent working for the Miami office.
In addition, the senior systems administrator traveled from West Palm Beach to Miami about
39 days on temporary duty, including overnight accommodations, at the government's
expense.
The Chief Information Officer told us, after completion of our work in Miami, the
senior systems administrator was directed by the deputy director to relocate to the Miami
office. In January 1997 the CIO told us that, subsequent to being notified of the
reassignment, the individual retired from the USMS, and the vacancy was opened to all
sources.
· The Northern District of New York (Utica, New York)
The District had a total of 25 staff with 10 located in Utica and the rest in
suboffices. A senior systems administrator was assigned to Utica to accommodate the
personal needs of the candidate selected. District office officials in Utica told us that
there was no need for a senior systems administrator there. In contrast, the Southern
District of New York did not have a senior systems administrator. We were told that
apparently the USMS selected Utica to receive a newly acquired and updated Altos 7000
computer because Utica had a senior systems administrator assigned.
The CIO told us that, after our work in Utica, the senior systems administrator began
spending about 75 percent of his time on travel status. The CIO stated that he considers
the Utica, NY senior systems administrator's assigned location to be irrelevant since he
is now travelling 75 percent of his time installing new MARSHALS district sites.
· The Western District of Washington (Seattle, Washington)
The Chief Deputy U.S. Marshal in Seattle (who has since been replaced) would not
authorize the senior systems administrator to travel. The rationale for this policy was
that the senior systems administrator was assigned to the District of Western Washington
and was only responsible for that district's automated systems.
After our audit work in Seattle, the senior systems administrator began extensive
travel throughout the region to install MARSHALS in other offices.
· The District of New Mexico (Albuquerque, New Mexico)
The Albuquerque senior systems administrator told us that she requested to be assigned
to the Albuquerque District Office because her husband had been transferred to
Albuquerque. Albuquerque was then in the region covered by the senior systems
administrator in Phoenix, Arizona. Consequently, the Albuquerque senior systems
administrator did not have regional responsibilities. The Albuquerque senior systems
administrator told us that she lacked the necessary background and training to address
network problems. In January 1997, the CIO told us that the employee has been provided
with several training courses and other learning opportunities; however, there may be a
learning curve to overcome.
While district office managers have line authority over the senior systems
administrators and perform their annual performance evaluations, the Headquarters'
Information Services Division directs their job tasks. One Chief Deputy U.S. Marshal told
us that he did not feel comfortable signing travel authorizations for the senior systems
administrator because he did not know the purpose or justification for the travel. The
same manager told us that he was not comfortable with completing the senior systems
administrator's performance evaluation because he, the manager, knew very little about
computer systems.
In our user survey, we asked about satisfaction with the senior systems administrators
and the quality of service provided. Users identified some concerns regarding the senior
systems administrators. Thirty-nine percent of survey respondees indicated that the senior
systems administrator did not routinely travel to their offices, and 24 percent neither
knew the senior systems administrator nor how to obtain their assistance. However, 33
percent of users were satisfied with the speed of the senior systems administrators
response to questions.
The CIO provided comments in response to our survey results. He stated that a senior
systems administrator can, at best, provide adequate support to no more than two or three
districts. Prior to FY 1996, funds were not allocated for travel by senior systems
administrators. An additional 20 computer specialist positions are expected to be filled
by the end of FY 1997.
Training
AIS Training
In our user survey, we asked about satisfaction with AIS training and users identified
significant concerns. Of the users expressing an opinion: more than half indicated that
training on the MARSHALS system and computer applications such as WIN, PTS, financial
management, and word processing had been inadequate; 80 percent indicated that additional
training by the Information Services Division would improve their job performance; and 88
percent indicated that periodic refresher training would be beneficial.
The Information Services Division staff told us that, after completion of our survey,
the USMS began pursuing a dual track strategy for training. For system users in the field,
training will be focused on applications. For computer specialists, the training will be
expanded to cover operating systems, programming languages, and databases.
Computer Security Training
The Computer Security Act of 1987 requires periodic training in computer security
awareness and accepted computer security practice for all employees involved in the
management, use, or operation of computer systems. The training should enhance employees'
awareness of the threats to and the vulnerability of computer systems, and encourage the
use of improved computer security practices.
To provide the required computer security training, the USMS Internal Security Division
sent a copy of a video entitled "CTSS Computer Security 101 Video" to all of the
USMS district offices. We reviewed computer security training records for all USMS
employees at the 20 USMS offices we audited. We found that in 6 of the 20 offices there
was no documentation to indicate that the staff had received computer security training in
the previous 12 months.
The USMS Internal Security Division Computer Security Specialist told us that the
videotape did not have the necessary impact to provide an annual reinforcement for
computer security. The USMS Information Services Division is working with JMD to develop
an interactive computer course to provide the required training.
Management's Perspective and Actions on AIS Management
We interviewed the Director of the USMS to obtain his perspective on management of AIS.
The Director, USMS, stated that his general assessment of the USMS Information Services
Division function when he first arrived indicated that Information Services Division was
fragmented and there was no future vision and overall plan to get the USMS involved with
the technological issues of the 21st Century. Based on his assessment, the Director
selected a CIO for the department. The Director emphasized his support for the CIO and his
efforts to date.
The CIO took actions upon his appointment to restructure and improve AIS management.
·  Enhanced training has been provided to system administrators, senior systems
administrators, Deputy U.S. Marshals, and administrative officers.
·  A contract for professional Help Desk personnel has been established and new
contracted personnel are staffing the Help Desk. An Automatic Call Distribution system has
been implemented for Help Desk calls. Incoming calls have increased significantly and the
database is being routinely maintained to document the questions asked and responses made.
·  During the first year of the CIO's tenure, priority was placed on user
support. Priority will now be switched over to systems development.
·  AIS planning is being refocused on one and three-year plans. Pilot projects
will be developed and expanded based on the success of the pilots.
·  A USMS Technology Committee has been implemented as an advisory committee and
a technology advocate.
·  Using a personal computer database, a system for accumulating AIS life cycle
costs has been established.
Conclusion
In our judgment, by appointing a CIO and restructuring the Headquarters level
management for AIS, the USMS has taken necessary first steps to improve its management of
information systems. Senior USMS management must now ensure completion of improvements to
information systems necessary to properly support the mission of the USMS.
Recommendations and Status of Corrective Actions
We recommend that the Director, USMS:
1. Initiate a plan to integrate operational systems that use common data elements.
Closed. This recommendation is closed based on information provided by the USMS
regarding the Justice Detainee Information System development plan, which incorporates a
strategy for integrating various operational databases into a centralized system.
2. Ascertain the status of all AIS systems and update the AIS Plan to provide for full
and timely implementation of systems deemed needed for operations.
Closed. This recommendation is closed based on our receipt of the portion of the
AIS Plan dealing with the Justice Detainee Information System, and the USMS management
commitment to implement MARSHALS and other applications in all district offices.
3. Accumulate AIS cost by project and life cycle.
Closed. This recommendation is closed based on the August 1996 USMS
implementation of an internal database and life cycle cost accumulating system which will
account for subsequent AIS equipment and expenditures.
4. Improve the quality of technical assistance provided in order to ensure that: (a)
user problems are entered in the Help Desk database, (b) system administrators are
adequately trained on USMS automated systems and are kept current on system upgrades and
changes, and (c) all system users have access to senior system administrators.
Closed. The recommendation is closed because the USMS Information Service
Division has addressed the management issues raised by the report as follows: (a) a
contract for professional Help Desk personnel has been established and the call database
is being routinely maintained as part of that contract, (b) a program incorporating
Systems Administrator training has been established, and (c) a program to increase hiring
of computer professionals throughout the USMS has provided users more direct access to
computer specialists.
5. Provide systems users with required AIS training to address users' concerns.
Resolved. The USMS has agreed to establish a training plan which assures that
new users are provided basic AIS systems training and existing users are provided
continued training on system developments.
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
In planning and performing our audit of the Automated Information Systems at the USMS,
we considered the USMS's management control structure for the purpose of determining our
auditing procedures. We did not review management controls in order to express an opinion
on the management control structure. However, we noted certain matters involving the
management control structure that we consider to be reportable conditions under generally
accepted government auditing standards.
Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the management control structure that, in our
judgment, could adversely affect the ability of the USMS to effectively monitor AIS
operations. We identified a weakness in the following area:
·  the USMS could not document that they provided computer training to the
districts in accordance with the Computer Security Act.
Because we are not expressing an opinion on the USMS management control structure, this
statement is intended solely for the information and use of USMS management in monitoring
AIS operations. This restriction is not intended to limit the distribution of this report,
which is a matter of public record.
STATEMENT ON COMPLIANCE WITH LAWS AND
REGULATIONS
We have audited the USMS AIS. In connection with the audit, and as required by the
standards, we reviewed program activities and records to obtain reasonable assurance about
the USMS compliance with laws and regulations that, if not complied with, we believe could
have a material effect on program operations. Compliance with laws and regulations
applicable to AIS activities is the responsibility of management.
An audit includes examining, on a test basis, evidence about laws and regulations. The
specific laws and regulations against which we conducted our tests were: (1) the Computer
Security Act of 1987 (Public Law 100-235), (2) Office of Management and Budget Circular
A-130, (3) Office of Management and Budget Circular A-123, (4) the Federal Acquisition
Regulation (FAR), (5) the Federal Information Resources Management Regulation, and (6) the
Justice Acquisition Regulation (JAR).
Except for those issues cited in the Findings and Recommendations section of the
report, our tests indicated that, for those items reviewed, the USMS was in compliance
with the laws referred to above. With respect to those transactions not tested, nothing
came to our attention that caused us to believe that USMS management was not in compliance
with the laws cited above.
1.      For these offices
communication is achieved through NCIC-NLETS ACCESS - a USMS application which allows
communication with the National Crime Information Center - National Law Enforcement
Tracking System.
2.      This amount includes FY
1995 expenditures of $650,000.
#####